OFFICE OF INSPECTOR GENERAL 


AUDIT OF USAID/LIBERIA’S
ENERGY PROGRAM
ACTIVITIES


AUDIT REPORT NO. 7-669-11-007-P
June 6, 2011




DAKAR, SENEGAL 

Office of Inspector General


June 6, 2011

MEMORANDUM

TO:       	         USAID/Liberia Mission Director, Patricia Rader

FROM: 	             Acting Regional Inspector General/Dakar, Van Nguyen /s/

SUBJECT:	           Audit of USAID/Liberia’s Energy Program Activities
                    (Report Number 7-669-11-007-P)

This memorandum transmits our report on the subject audit. In finalizing the report, we carefully
considered your comments on the draft report and have included the comments in their entirety
in Appendix II.

The report includes seven recommendations. Management decisions have been reached on all
seven recommendations. Please provide the Audit Performance and Compliance Division in
the USAID Office of the Chief Financial Officer with the necessary documentation to achieve
final action.

I appreciate the cooperation and courtesy you extended to my staff during the audit.




U.S. Agency for International
Development
Ngor Diarama
Petit Ngor
BP 49
Dakar, Senegal
www.usaid.gov/oig
CONTENTS 

Summary of Results ....................................................................................................... 1 


Audit Findings................................................................................................................. 3

     Reported Results Were Not Verifiable ........................................................................ 3

     Mission Approved Energy Awards Without Conducting Required
     Environmental Assessments....................................................................................... 5 


     Energy Program Locations Did Not Have Adequate Branding ................................... 6 


Evaluation of Management Comments......................................................................... 7 


Appendix I – Scope and Methodology .......................................................................... 8 


Appendix II – Management Comments ....................................................................... 10





     Abbreviations

     The following abbreviations appear in this report:

     ADS              Automated Directives System
     COTR             contracting officer’s technical representative
     EPP              Emergency Power Program
     FY               fiscal year
     IEE              Initial Environmental Evaluation
     IRG              International Resources Group
     LEAP             Liberia Energy Assistance Program
     LEC              Liberia Electricity Corporation
     MOU              memorandum of understanding
SUMMARY OF RESULTS

From 1989 until 2003, Liberia suffered through a civil war that destroyed most of its
infrastructure and devastated its economy. During the civil war, Liberia’s electrical power
infrastructure was destroyed; diesel-fueled personal generators powered all lights in the capital
of Monrovia until only a few years ago. According to USAID/Liberia officials, the absence of
electricity throughout the country, particularly in Monrovia, is a major impediment to the
restoration of economic activity, employment opportunities, and a functioning government.
USAID is collaborating with the Liberian Government, the Government of Norway, the European
Commission, the World Bank, and other international donors to assist with supplying electricity
to selected areas in response to the Liberian Government’s priorities for national recovery.

To this end, USAID entered into two task order contracts with International Resources Group
(IRG): the Emergency Power Program (EPP) and the Liberia Energy Assistance Program
(LEAP). EPP was designed to recommercialize the Liberia Electricity Corporation (LEC) by
delivering systems support and human capacity in key business functions; it ran from July 2006
through November 2009, with total funding of $8.1 million. LEAP was designed to increase
access to affordable energy supplies to foster economic, social, and political development; it ran
from October 2006 through February 2009, with total funding of $10.9 million. During fiscal
years (FYs) 2009 and 2010, the mission obligated $3.7 million and expended $5.5 million for
energy development activities under these two programs, which included obligations from prior
fiscal years.

This audit was conducted to determine whether USAID/Liberia’s energy activities through IRG
increased access to modern energy services for targeted beneficiaries. The audit determined
that, although the mission achieved its goal of increasing access to modern energy services for
beneficiaries, it could not always support reported results. For example, the audit was unable to
verify that 958 total streetlights were installed or that 246,000 total beneficiaries obtained
increased access to electricity during FY 2009, as reported by the mission.

The lack of documentation occurred for several reasons. From 2006 through 2009, the mission
operated in reactive mode, trying to help as many Liberians as quickly as possible and
responding to quickly changing and urgent needs (such as the lack of electricity generation in
the capital) rather than establishing long-term plans and targets. The mission also experienced
considerable staff turnover and shortages. For example, both energy programs, with the longer
lasting only 40 months, had four different contracting officer’s technical representatives
(COTRs) during the life of the programs. In addition, the mission’s activities were high risk,
given the post-conflict working environment, and especially because of the increased size of the
mission budget each fiscal year, mission staff faced more demands and had less time to
perform routine functions. Therefore, monitoring and evaluation activities did not always meet
requirements and required documentation of programs was lacking.

Despite the problems noted above, both programs improved electrical service in Liberia. For
example, by installing and managing generators and distribution equipment, EPP contributed
significantly to bringing the national electrical grid in Monrovia back online providing public
electricity generation to the country for the first time since the civil war. Additionally, EPP
worked extensively with the LEC to recommercialize the organization by providing technical
support and funding for the necessary rehabilitation of the LEC office building and supplying
furniture and office equipment. LEAP implemented several viable pilot projects as potential


                                                                                                1
solutions to the energy shortcomings in Liberia, including the use of solar energy and prepaid
metering to reduce electricity theft. In addition, LEAP contributed significantly to the adoption of
the Liberian National Energy Policy and other pieces of legislation, as well as to the electrical
transmission and distribution equipment used in conjunction with EPP to further electrification of
Monrovia.

To address the weaknesses noted above and in detail later, the report recommends that
USAID/Liberia:

1. 	 Require COTRs to conduct site visits and perform data verification during visits (page 4).

2. 	 Create an annual site visit plan (page 4).

3. 	 Determine the condition of 100 solar lantern kits that have been in storage (page 4).

4. 	 Inform staff of environmental requirements (page 6).

5. 	Ensure that all documents for the new energy program incorporate language on
    environmental compliance (page 6).

6. 	Develop an action plan to ensure no environmentally sensitive activities begin while
    environmental approval of the new program is pending (page 6).

7. 	 Ensure that all staff members are aware of USAID branding requirements (page 6).

Detailed findings appear in the following section. Our evaluation of management comments is
included on page 7. Appendix I contains the audit’s scope and methodology. Appendix II
contains USAID/Liberia’s written comments on the draft report.




                                                                                                  2
AUDIT FINDINGS 

Reported Results Were Not
Verifiable
To measure performance effectively and make informed management decisions, missions must
ensure that quality data are collected and made available. USAID provides its assistance
objective teams with extensive guidance to help them manage for improved results. Among this
guidance is Automated Directives System (ADS) 203.3.5.2, which states that the USAID
mission/office and assistance objectives teams should be aware of the strengths and
weaknesses of their data and the extent to which the data’s integrity can be trusted to influence
management decisions. According to ADS 203.3.5.1, “Data Quality Standards,” performance
data should meet data quality standards for validity, integrity, precision, reliability, and
timeliness, and missions should take steps to ensure that the data clearly and adequately
represent the intended result.

The audit found that the required documentation was not available to support the reported
results. In an effort to verify the results, the auditors were forced to rely on documentation from
outside parties. For instance, the auditors used a memorandum of understanding (MOU) that
was signed between the mission and the Government of Liberia in February 2009 to obtain a list
of solar energy assets installed. Additionally, the auditors obtained a listing from LEC of all
assets in its possession, including USAID-funded assets.

Although the MOU was useful in showing where to find the solar energy assets, the auditors
found errors in this list. The MOU listed a solar-powered water pump installed at one site;
however, IRG never installed it. At another site, the beneficiary was incorrectly identified; the
actual beneficiary was not listed in the MOU, and the listed beneficiary never received the solar
energy system. At a third location, two solar streetlights were reported as installed; however,
the auditors noted that four had actually been installed.

The asset listing received from LEC was not usable for the auditors’ purposes of verifying the
installation of USAID-funded streetlights. The asset listing stated only a lump sum of electrical
assets received from IRG. However, the auditors were able to meet with a contractor working
for LEC who had experience with the USAID-funded project, and he provided the auditors with a
map showing where the USAID-funded streetlights were installed. However, there was
confusion regarding the specific assets that were directly attributable to USAID activities.

The audit found inaccuracies in reported targets and results. For instance, the mission’s FY
2009 Performance Plan and Report stated that 1,300 was the cumulative target of streetlights
installed and operating for that year. The mission explained that the annual target should have
been only 905 to reach the 1,300 cumulative total, as 395 streetlights were reported in FY 2008.
For the result, the mission reported 958, thus appearing to surpass the FY 2009 target.
However, the supporting documentation from the mission and implementing partner states that
only 1,230 streetlights were installed by the end of 2009, which included the 395 reported in FY
2008. Therefore, the mission should have reported only 835 streetlights in FY 2009, a number
that was short of both the original and revised targets. The mission overstated results by 15
percent for that period.




                                                                                                 3
A similar issue occurred when the mission reported the results for the indicator measuring
number of people with increased access to modern energy services because of U.S.
Government assistance. The FY 2009 Performance Plan and Report shows a cumulative target
of 476,000 beneficiaries. The mission explained that this should have been an annual target of
246,000, as the FY 2008 report listed 230,000 beneficiaries. The mission reported reaching
310,000 beneficiaries during the fiscal year, surpassing the target. However, the audit found
supporting documentation for only 100,000 beneficiaries added in FY 2009. Although the
cumulative target was reportedly met for this project, the mission overstated results by 210
percent for FY 2009 and should have reported only 100,000 beneficiaries.

Additionally, the mission publicized the Urban Solar Lantern project as a success story. At the
end of LEAP, 425 solar light kits and 30 tool kits were transferred to the Center for Sustainable
Energy Technology, the subcontractor responsible for this program. However, the audit found
that more than 100 of these light kits and several tool kits were left to corrode and become
possibly useless. The total cost for all the kits was approximately $2,000.

The lack of documentation of monitoring and verification activities conducted by the mission was
a result of the reactive mode in which the mission was managing the program, which was
aggravated by staff turnover and shortages. Although the mission and its partners had
established a steering committee that monitored program activities, priority was not given to
documenting monitoring and data verification activities. For example, the mission’s program
office and COTR files did not contain sufficient documentation supporting the reported results,
including site visit reports or other monitoring reports. Site visits were not always conducted to
ensure that program and mission activities were proceeding as planned. In addition, data
quality limitations were not addressed in the performance management plan or in the
performance plan and report. Internal controls for results reporting were not adequate to ensure
that reported results were (1) valid, (2) attributable to the mission’s program, (3) accurate and
supported, and (4) accurately summarized before being reported to the mission.

Reporting inaccurate results can undermine USAID’s credibility and impair its ability to secure
the resources it needs to accomplish its mission. Without accurate reported results,
USAID/Liberia did not have reasonable assurance that data quality met validity, reliability, and
timeliness standards established in ADS 203.3.5.1, which could impede performance-based
decision making. The likelihood of data quality deficiencies could have been minimized if data
quality assessments had been completed, the mission had retained source documentation, site
visits had been conducted regularly and documented, and monitoring and evaluation of the
program by USAID/Liberia and its partners had been improved. To address these deficiencies,
this audit makes the following recommendations:

   Recommendation 1. We recommend that USAID/Liberia develop and implement a
   policy requiring all contracting and agreement officer’s technical representatives to
   conduct and document site visits and, when feasible, verify reported indicator data
   during these site visits.

   Recommendation 2. We recommend that USAID/Liberia develop and implement an
   annual site visit plan.

   Recommendation 3. We recommend that USAID/Liberia, in conjunction with its
   implementing partner, determine which of the 100 solar light kits can be provided to
   intended beneficiaries and which should be disposed of properly.



                                                                                                4
Mission Approved Energy Awards
Without Conducting Required
Environmental Assessments

USAID activities may have an adverse impact on the environment. The Foreign Assistance Act
of 1961, as amended, Section 117, requires that the impact of USAID’s activities on the
environment be considered and that USAID take into account environmental sustainability in
designing and carrying out its development programs. This requirement is codified in 22 CFR
216 and in ADS.

Title 22 of the Code of Federal Regulations, Part 216, establishes several requirements,
including (1) assigning responsibilities within USAID for assessing the environmental impacts of
its actions, (2) requiring that environmental safeguards be incorporated into program planning
and design, and (3) directing that programs, to the extent feasible and relevant, be continually
monitored and modified when necessary to mitigate environmental impact.

ADS requires that the activity manager ensure that the requirements in 22 CFR 216 for an
environmental impact assessment have been met, approved in writing by the relevant bureau
environmental officer, and incorporated into the implementation instruments. Specifically, ADS
201.3.11.2 states that federal law mandates that an Initial Environmental Examination (IEE),
Request for Categorical Exclusion, environmental assessment, or other appropriate action
under the USAID environmental procedures promulgated in 22 CFR 216 must be completed
and approved in writing by the relevant bureau environmental officer before funds are obligated.

In addition, ADS 204.3.4 requires that missions develop effective environmental review
procedures consistent with their strategic and operational plans to ensure that environmental
reviews are completed, including completing an IEE for each program or activity at the earliest
point in the planning and design process.

The audit found that USAID/Liberia did not complete an approved IEE for either EPP or LEAP.
Even though the contract required and funded an approved IEE, the IEE remained in draft and
was never approved by appropriate officials. According to mission staff, the IEE remained in
draft because approving authorities at the Regional Bureau in Accra considered it too late in the
life cycle of the program to use resources to formally approve it. However, the COTR did retain
the draft IEE in his files. Likewise, the implementing partner has drafted an IEE dated
December 3, 2010, for the Liberia Energy Sector Support Program—the follow-on program to
LEAP and EPP, which began on October 4, 2010—but as of the end of audit fieldwork, that IEE,
too, remained unapproved.

USAID/Liberia did not have specific internal policies and procedures regarding environmental
compliance, and the mission’s activity managers and implementing partners may not have been
fully aware of their responsibilities regarding environmental compliance. The agreements for
LEAP and EPP contained broad language requiring compliance with 22 CFR 216. However,
neither the agreements for LEAP and EPP nor the proposals received from the contractor
included specific required language about environmental compliance, as recommended in ADS
Environmental Compliance: Language for Use in Solicitations and Awards—An Additional Help
for ADS Chapter 204.

Because the mission did not fully comply with USAID environmental regulations, its activities may
be less effective and may not achieve their intended results. In addition, inadequate processes


                                                                                               5
might result in new activities with high environmental impact being conducted without adequate
safeguards, which could reflect negatively on USAID and the U.S. Government. To strengthen
USAID/Liberia’s environmental compliance, this audit makes the following recommendations.

   Recommendation 4. We recommend that USAID/Liberia establish policies to ensure
   compliance with environmental requirements for its entire portfolio and that these
   requirements be communicated to its staff and implementing partners.

   Recommendation 5. We recommend that USAID/Liberia determine that all activity
   documents under the Liberia Energy Sector Support Program incorporate appropriate
   language regarding environmental compliance and be approved by the appropriate
   officials prior to project implementation.

   Recommendation 6. We recommend that USAID/Liberia develop an action plan that
   contains a timetable to ensure that no environmentally sensitive activities are begun
   under the Liberia Energy Sector Support Program until the Initial Environmental
   Examination is approved.

Energy Program Locations Did Not
Have Adequate Branding
Ensuring that the American people are appropriately recognized for their generosity in funding
U.S. foreign assistance has been a long-standing U.S. Government objective. USAID’s
branding guidance is established in ADS 320.3.2.4.a, which states that “commodities or
equipment provided under humanitarian assistance, disaster relief or development programs,
and all other program commodities and equipment funded by USAID contracts, and their export
packaging, must prominently display the USAID Identity.” Additionally, ADS 320.3.2.4.b states
that “program, project, or activity sites financed by USAID contracts, including visible
infrastructure projects (roads, bridges, buildings, etc.) or others that are physical in nature
(agriculture, forestry, water management, etc.), must prominently display the USAID Identity.
Temporary signs must be erected early in the construction or implementation phase. When
construction or implementation is complete, the contractor must install a permanent, durable
and visible sign, plaque, or other marking.”

The audit found that USAID branding was nonexistent for most of the energy program locations
visited. Only 1 of the 17 sites visited was properly branded with the USAID logo. Furthermore,
only 35 percent of the beneficiaries (6 of the 17 interviewed) knew that USAID funded their solar
energy systems or that the American people paid for these assets. This lack of awareness
occurred because USAID/Liberia did not properly monitor or enforce branding requirements.

Recognition for USAID-funded projects is increasingly important in a country such as Liberia,
where there are numerous new projects and myriad international organizations providing
assistance. Without adequate branding, the American people who funded the solar energy
program are not recognized, and opportunities to create positive impressions of the United
States are lost, hindering public diplomacy efforts in Liberia and minimizing USAID’s importance
among international donors. Therefore, this audit makes the following recommendation.

   Recommendation 7. We recommend that USAID/Liberia establish and implement
   procedures to ensure that mission staff are aware of their responsibilities regarding
   USAID’s branding requirements.



                                                                                               6
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Liberia agreed with all seven recommendations in the draft report. Management
decisions have been reached on all seven recommendations. Our evaluation of management
comments is shown below.

Recommendation 1. USAID/Liberia agrees with the recommendation and will prepare a draft
mission order on site visits, including procedures for each technical office to develop and
implement a site visit plan in coordination with the Program Office. The Mission Order is
expected to be finalized by August 30, 2011. Accordingly, a management decision has been
reached on this recommendation.

Recommendation 2. USAID/Liberia agrees with the recommendation and will finalize the
mission order and the initial annual site visit plan by October 15, 2011. Accordingly, a
management decision has been reached on this recommendation.

Recommendation 3. USAID/Liberia agrees with the recommendation, and the COTR for the
current energy sector project (Liberia Energy Sector Support Project) will coordinate with the
implementing partner to determine which of the remaining solar light kits can be provided to
intended beneficiaries and which should be disposed of properly. This action will be completed
by August 2011. Accordingly, a management decision has been reached on this
recommendation.

Recommendation 4. USAID/Liberia agrees with the recommendation and will (1) issue a
revised Mission Order on New Activity Design and Amendment of Existing Activities and (2)
conduct environmental compliance training for all mission and implementing partner staff. The
target date for completion of these actions is September 15, 2011. Accordingly, a management
decision has been reached on this recommendation.

Recommendations 5 and 6. The COTR received the Initial Environmental Evaluation (which
contains explicit steps and a timetable to ensure that no environmentally sensitive activities are
begun until full USAID environmental approval is received) from the bureau environmental
officer and is processing mission clearances and approvals to obtain a fully executed Initial
Environmental Evaluation by no later than July 1, 2011. Accordingly, a management decision
has been reached on these recommendations.

Recommendation 7. USAID/Liberia agrees with this recommendation and will include the
requirements for branding and marking in the revised mission order. Also, the mission intends
to conduct a branding and marking refresher course. The target date for completion of these
actions is September 30, 2011. Accordingly, a management decision has been reached on this
recommendation.




                                                                                                7
                                                                                            Appendix I



SCOPE AND METHODOLOGY
Scope
The Office of the Regional Inspector General/Dakar (RIG/Dakar) conducted this audit in
accordance with generally accepted government auditing standards.1 Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions in accordance with our audit objective. We
believe that the evidence obtained provides that reasonable basis.

The purpose of this audit was to determine whether USAID/Liberia’s energy activities increased
access to modern energy services for targeted beneficiaries. The audit focused on energy
activities occurring in FYs 2009 and 2010. The energy programs audited are shown in the
following table.

              USAID/Liberia’s Energy Assistance Partner and Programs Reviewed

       Implementing                          Program                          Agreement/Task Order
       Partner                                                                  Amount      Dates
                                                                              ($ millions)
       International      The Emergency Power Program (EPP) was                   8.1      7/2006–
       Resources Group    designed to recommercialize the Liberia                          11/2009
                          Electricity Corporation (LEC) through delivery of
                          systems support and human capacity in the key
                          business functions
       International      The Liberia Energy Assistance Program (LEAP)           10.9     10/2006–
       Resources Group    was designed to increase access to affordable                   02/2009
                          energy supplies to foster economic, social, and
                          political development

In planning and performing the audit, the audit team assessed relevant controls that the mission
used to manage the program and ensure that its implementing partners were providing
adequate oversight of program activities. The assessment included controls related to whether
USAID/Liberia had (1) reviewed progress and financial reports submitted by the implementing
partners, (2) conducted and documented periodic meetings with the implementing partners, (3)
performed documented visits to the activity sites, and (4) developed and implemented policies
and procedures to safeguard the assets and resources of the activities. Additionally, the
auditors examined the mission’s FY 2010 annual self-assessment of management controls,
which the mission is required to perform to comply with the Federal Managers’ Financial
Integrity Act of 1982,2 to determine whether the assessment cited any relevant weaknesses.

Audit fieldwork was performed at USAID/Liberia, as well as at the implementers’ offices in
Monrovia. The audit team made field trips to 17 beneficiaries (individuals or institutions) from
February 21 to 25, 2011, in and around the cities of Totota, Gbarnga, Cotton Tree, Dolo Town,
Sanniquellie, and Monrovia. Additionally, the team made a site visit at night in Monrovia to
check on streetlights.

1
    Government Auditing Standards, July 2007 Revision (GAO-07-731G).
2
    Public Law 97-255, as codified in 31 U.S.C. 3512.


                                                                                                     8
                                                                                       Appendix I


Methodology
To answer the audit objective, we reviewed the energy programs’ indicators reported by
USAID/Liberia in FYs 2009 and 2010, as well as activities of the implementing partner. We met
with the energy assistance team in Liberia to gain an understanding of the program activities
and reviewed available agreements, progress reports, and implementing partner work plans.
We reviewed applicable laws and regulations and USAID policies and procedures pertaining to
USAID/Liberia’s energy assistance program, including ADS guidance, the USAID/Liberia
operational plans for FYs 2009 and 2010, and the Liberia strategic plan. During site visits, we
interviewed implementing partner staff, service providers, beneficiaries, and officials from
Liberia’s electricity company. We also verified reported results related to the number of
streetlights installed and operating, and confirmed whether activities were monitored and
evaluated as required.

In general, the audit involved (1) validating the reported results under selected key performance
indicators and (2) conducting site visits to selected activities. In validating the program’s
reported results, the audit team focused on the data reported on the following performance
indicators:

   Number of people with increased access to modern energy services as a result of U.S.
    Government assistance
   Total public and private dollars leveraged by the U.S. Government for energy infrastructure
    projects
   Number of streetlights installed and operating

The scope of our testing was limited to validating the data reported on the indicators based on
either mission documents or external sources. Because this testing was based on a
judgmental, not statistical, sample of indicators and sites, the results and overall conclusions
related to this analysis were limited to the items tested and could not be projected to the entire
audit universe. However, we believe that our work provides a reasonable basis for our
conclusions.




                                                                                                9
                                                                                         Appendix II



MANAGEMENT COMMENTS 



             AUDIT OF USAID/LIBERIA’S ENERGY PROGRAM ACTIVITIES 

                   Audit Report No. 7-669-11-00X-P, APRIL XX, 2011 

                Dakar, Senegal, Office of Inspector General, April 18, 2011 



Management Comments

The USAID/Liberia Mission welcomes the thorough and thoughtful Findings and
Recommendations contained in this Report, based on the audit team examining whether two of
the Mission’s historical energy activities did succeed to increase access to modern energy
services for targeted beneficiaries. The audit focused on the performance of the work of two
activities - the Emergency Power Program and the Liberia Energy Assistance Program - in fiscal
years 2009 and 2010. The Mission appreciates that the team took note that the issues identified
were significantly influenced by the historical combination of severe staff constraints and
challenging post-conflict stabilization environment. The Mission notes that it has already put in
place many changes in policy and procedures to address the issues identified. Our Management
Comments for each to the three Findings and their associated Recommendations follow.

1. Reported Results Were Not Verifiable

The Mission agrees that in some cases required documentation was not readily available to the
audit team to support the reported results and that there were Mission files that were not present.
Further, the Mission recognizes that in some cases there were inaccuracies between reported
targets and supported results. The Mission concurs that there was a lack of documentation of
monitoring and verification activities conducted by the Mission, which as is noted was in large
part a result of the shortages of staff. The Mission appreciates that the audit team noted that the
combination of the large size of the Liberia budget, very small staff, and high turnover associated
with working in a high-pressure stabilization and conflict mitigation mode contributed to all of
these problems.

Recommendation 1 We recommend that USAID/Liberia develop and implement a policy
requiring all contracting and agreement officer’s technical representatives to conduct and
document site visits and, when feasible, verify reported indicator data during these site visits.

The Mission agrees with this recommendation and has already initiated actions to address it.
The Program Office has canvassed several other Missions with regard to policy, including
Mission Orders. Based on the information gathered USAID/Liberia will:




                                                                                                    10
                                                                                       Appendix II


 ‐   Prepare a draft Mission Order on Site Visits, for full internal Mission review by July 15,
     2011.
 ‐   Finalize a Mission Order on Site Visits, including procedures for each technical office to
     develop and implement a site visit plan in coordination with the Program Office by August
     30, 2011.

Recommendation 2 We recommend that USAID/Liberia develop and implement an annual site
visit plan.

The Mission agrees with this recommendation and the finalized Mission Order on Site Visits
will include processes and procedures for each technical office to develop and implement a site
visit plan in coordination with the Program Office and the initial annual plan will be completed
by October 15, 2011.

Recommendation 3 We recommend that USAID/Liberia, in conjunction with its implementing
partner, determine which of the 100 solar light kits can be provided to intended beneficiaries and
which should be disposed of properly.

The Mission agrees with this recommendation and the COTR for current energy sector project
(Liberia Energy Sector Support Project) will coordinate with that implementing partner
(Winrock) to determine which of the remaining solar light kits at CEST can be provided to
intended beneficiaries and which should be disposed of properly. This action will be completed
by August 2011.

2. Mission Approved Energy Awards Without Conducting Required Environmental
Assessments

The Mission recognizes that requirements of ADS 201.3.11.2, in particular with regard to
ensuring approved IEEs per 22 CFR 216, and effective implementation of ADS 204.3.4 in terms
of ensuring that environmental reviews were completed for each of the reviewed activities at the
earliest point in the planning and design process were not met. As the team noted, IEEs which
were prepared remained in draft because approving authorities at the Regional Bureau in Accra
considered it too late in the life cycle of the program to use resources to formally approve it,
while the COTR retained the draft IEE in project files. The Mission notes that in extending their
review beyond EPP and LEAP, the team did find that the draft IEE of December 3, 2010 for the
follow-on program to LEAP and EPP – the Liberia Energy Sector Support Program (LESSP)
which began on October 4, 2010 - had not received final approval by the end of their field work.

Recommendation 4 We recommend that USAID/Liberia establish policies to ensure compliance
with environmental requirements for its entire portfolio and that these requirements be
communicated to its staff and implementing partners.
The Mission agrees with this recommendation and has already initiated actions to address it.
The Mission is currently revising its Mission Order on New Activity Design and Amendment of
Existing Activities to ensure streamlined and effective fulfillment of all pre-obligation
requirements before actions enter the GLAAS work stream. The revised MO explicitly details
the steps required to meet all ADS requirements, and in specific those related to 22 CFR 216.



                                                                                                11
                                                                                       Appendix II


USAID/Liberia will:
 ‐ Prepare a draft Mission Order on New Activity Design and Amendment of Existing
     Activities, for full internal Mission review by August 1, 2011.
 ‐ Finalize a Mission Order on New Activity Design and Amendment of Existing Activities,
     including procedures for ensuring environmental compliance with pre-obligation
     requirements by September 15, 2011.
 ‐ Conduct environmental compliance training for all Mission and Implementing Partner staff,
     currently tentatively scheduled for the week of June 6 – 10, 2011.
 ‐
Recommendation 5 We recommend that USAID/Liberia determine that all activity documents
under the Liberia Energy Sector Support Program incorporate appropriate language regarding
environmental compliance and be approved by the appropriate officials prior to project
implementation.

Recommendation 6 We recommend that USAID/Liberia develop an action plan that contains a
timetable to ensure that no environmentally sensitive activities are begun under the Liberia
Energy Sector Support Program until the Initial Environmental Examination is approved.

Although the LESSP activity strictly lies outside the scope of the audit team terms of reference,
the Mission welcomes these recommendations and notes that it is already addressing them to
ensure full environmental compliance of this activity. In particular:
  ‐ LESSP COTR received the final BEO-reviewed IEE (based on draft of December 3, 2010)
     and is processing Mission clearances and approvals to obtain a fully-executed IEE by no
     later than June 1, 2011; and
  ‐ The final BEO-reviewed IEE contains explicit steps and a timetable to ensure that no

     environmentally sensitive activities are begun under the LESSP until full USAID 

     environmental approval is received. 


Energy Program Locations Did Not Have Adequate Branding

The Mission fully embraces the requirements of ADS 320.3.2.4 with regard to branding and
marking and accepts that Mission staff did not fully monitor or enforce branding requirements in
regard to the sites visited the team. The Mission agrees with the finding that proper and full
recognition for USAID-funded projects is always important in every country and Liberia is no
different. The Mission notes that as with other findings related to these historical energy sector
activities, the combined effects of large program size, limited staffing, high staff turnover, and
the high-pressure stabilization and conflict mitigation environment all contributed to any
observed weaknesses in monitoring and enforcing branding requirements in EPP and LEAP

Recommendation 7 We recommend that USAID/Liberia establish and implement procedures to
ensure that mission staff are aware of their responsibilities regarding USAID’s branding
requirements.

The Mission agrees with this recommendation and has already taken actions to address it:




                                                                                                12
                                                                                  Appendix II


‐   All Scopes of Work and Program Descriptions contain the requirements for Branding and
    Marking Plans before award, which will be reiterated in the revised Mission Order on New
    Activity Design and Amendment of Existing Activities (see Recommendation 4, above).
‐   The Mission Development Outreach Coordinator has prepared proposal to conduct a
    Branding and Marking refresher course for all COTRs/AOTRs, which is tentatively
    scheduled for September 2011.




                                                                                          13
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig
